                              Office of the Inspector General


James Fornataro
Associate Commissioner
 for Office of Acquisition and Grants

Assistant Inspector General
 for Audit

Costs Claimed by the State of Michigan on the Social Security Administration’s
Contract Number 600-94-13780


The enclosed final report presents the results of our audit of the costs claimed by the
State of Michigan on the Social Security Administration’s Contract Number (CN) 600-
94-13780 (A-13-98-81033). The objective of our audit was to determine if costs
claimed by the State of Michigan for CN 600-94-13780 were allowable, allocable, and
reasonable in accordance with applicable Federal regulations and the terms of the
contract. This report also provides the contracting officer with cost information to
determine the final value of the contract and use in closing out the contract.

You may wish to comment on any further action taken or contemplated on our
recommendation. If you choose to offer comments, please provide your comments
within the next 60 days. If you wish to discuss the final report, please call me at (410)
965-9700.




                                             Pamela J. Gardiner

Attachment

cc:

Yvette S. Jackson

Deputy Commissioner for Finance,

 Assessment an Management
Mr. Robert Davis, State Director

Michigan Jobs Commission

Michigan Rehabilitation Services

PO Box 30010

Lansing, Michigan 48909


Dear Mr. Davis:


The enclosed draft report presents the results of our audit of the costs claimed by the

State of Michigan on the Social Security Administration’s Contract Number (CN) 600-

94-13780 (A-13-98-81033). The objective of our audit was to determine if costs

claimed by the State of Michigan for CN 600-94-13780 were allowable, allocable, and

reasonable in accordance with applicable Federal regulations and the terms of the

contract.


You may wish to comment on any further action taken or contemplated on our

recommendation. If you choose to offer comments, please provide your comments

within the next 60 days. If you wish to discuss the final report, please call me at (410)

965-9700.





                                          Pamela J. Gardiner


Enclosure

cc:

Yvette S. Jackson

Deputy Commissioner for Finance,

 Assessment an Management
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



COSTS CLAIMED BY THE STATE OF
   MICHIGAN ON THE SOCIAL
  SECURITY ADMINISTRATION’S
 CONTRACT NUMBER 600-94-13780

   September 1998   A-13-98-81033




AUDIT REPORT

                      E X E C U TI V E S U M M AR Y 


OBJECTIVE

The objective of this audit was to determine if costs claimed by the State of Michigan
for Contract Number (CN) 600-94-13780 were allowable, allocable and reasonable in
accordance with applicable Federal regulations and the terms of the contract. This
report also provides the Contracting Officer (CO) with cost information to determine
final value of the contract and use in closing out the contract.

Background

The Social Security Administration’s (SSA) Office of Acquisition and Grants (OAG)
requested an audit of costs incurred by the State of Michigan (CN 600-94-13780) for
Referral and Monitoring Agency (RMA) services to refer, assess, and monitor drug
                                                                                            1
addicts and alcoholics (DA&A) receiving Supplemental Security Income (SSI) benefits.
The contracted service period was from July 1, 1994 through September 24, 1995. The
costs claimed under CN 600-94-13780 are defined in terms of the contract, Federal
Acquisition Regulations (FAR) and the Office of Management and Budget (OMB)
Circular A-87. This circular provides criteria to establish allowability, allocability, and
reasonableness of costs claimed by the State for Federal cost reimbursement
contracts. 2

We limited our audit to the review of costs incurred by the State of Michigan for CN
600-94-13780. We did not assess, and do not express an opinion of the overall
acceptability of the State of Michigan internal controls or accounting system. We
performed our audit work at the State of Michigan, Michigan Jobs Commission, located
in Lansing, Michigan. We also performed work at OAG located at SSA Headquarters in
Baltimore, Maryland. The field work was conducted from February 1998 through May
1998.




������������������������������������

1
 SSI provides income maintenance payments to low-income individuals who are aged, blind, or

disabled. DA&As were determined disabled if they met income and other eligibility requirements, but this

category was eliminated in March 1996 by Public Law 104-121. However, prior to the elimination of the

DA&A category, each State had an RMA contractor who referred, assessed, and monitored both title II

and title XVI DA&A recipients.

2
    OMB Circular A-87, ”Cost Principles for State, Local and Indian Tribal Governments.”


                                                      �

RESULTS OF REVIEW

The State of Michigan claimed a total of $1,050,542 for CN 600-94-13780.
Except for $13,004 in questioned labor and related fringe benefit costs, we
determined the claimed costs were allowable, allocable, and reasonable in
accordance with applicable Federal regulations and the terms of the contract.

RECOMMENDATION

We recommend that SSA recover the questioned costs of $13,004 from the State of
Michigan on CN 600-94-13780.

SSA COMMENTS

SSA agreed with the intent of the recommendation. However, the Agency did not
provide comments and will consider the recommendation at the time of negotiation and
administrative close-out of the contract. (See Appendix B for the full text of the
Agency’s comments.)

STATE OF MICHIGAN COMMENTS

No comments received.




                                         ��

                         TAB L E O F C O N TE N TS


                                                                                                              Page

EXECUTIVE SUMMARY ......................................................................................... i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

    INAPPROPRIATELY CLAIMED LABOR AND RELATED
    FRINGE BENEFIT COSTS ARE QUESTIONED............................................... 3

RECOMMENDATION ............................................................................................. 4

APPENDICES

APPENDIX A - Schedules and Explanatory Notes for Claimed and Recommended
             Costs on Contract Number 600-94-13780

APPENDIX B - SSA’s Comments to Draft Report

APPENDIX C - Major Contributors to This Report

APPENDIX D – SSA Organizational Chart
                          I N TR O D U C TI O N


OBJECTIVE

The objective of this audit was to determine if costs claimed by the State of Michigan
for CN 600-94-13780 were allowable, allocable and reasonable in accordance with
applicable Federal regulations and the terms of the contract. This report also provides
the CO with cost information to determine the final value of the contract and use in
closing out the contract.

BACKGROUND

SSA’s OAG, requested an audit of costs incurred by the State of Michigan under its
contract (CN 600-94-13780) for RMA services to refer, assess, and monitor DA&As
receiving SSI benefits. The contracted service period was from July 1, 1994 through
September 24, 1995.

The costs claimed under CN 600-94-13780 are defined in terms of the contract.
Additionally, OMB Circular A-87 provides criteria that establish allowability, allocability,
and reasonableness of costs claimed by the State for Federal cost reimbursement
contracts.

SCOPE AND METHODOLOGY

We limited our audit to the review of costs incurred by the State of Michigan for CN
600-94-13780. We did not assess, and do not express an opinion of the overall
acceptability of the State of Michigan internal controls or accounting systems.

We did review, on a limited basis, the contractor’s internal controls. In doing so, we
assessed control risk as “high” and expanded our substantive tests, which our audit
reflects and which provides a reasonable basis for our conclusions. We also
examined, on a test basis, evidence supporting the amounts claimed; inspected
disclosures in the data; reviewed records; assessed the accounting principles used and
significant estimates made by the contractor; and evaluated the overall data and
records presentation.




                                             �

To evaluate claimed costs, we used FAR, OMB Circular A-87, plus the terms and
conditions of the contract. Costs that did not meet the requirements of FAR, this
circular, and the contract were questioned for SSA’s use in determining the final value
of the contract and closing it out.

Work was performed at the State of Michigan, Michigan Jobs Commission located in
Lansing, Michigan and OAG located at SSA Headquarters in Baltimore, Maryland. The
field work was conducted from February 1998 through May 1998. Our audit was
conducted in accordance with generally accepted government auditing standards.




                                           �

                  R E S U L TS O F R E V I E W 


Except for the questioned costs discussed below, we determined that the costs
claimed by the State of Michigan on CN 600-94-13780 were allowable,
allocable, and reasonable in accordance with applicable Federal regulations
and the terms of the contract.

INAPPROPRIATELY CLAIMED LABOR AND RELATED FRINGE BENEFIT COSTS
ARE QUESTIONED

Labor Costs and Related Fringe Benefit Costs

We question whether $9,027 of the labor costs claimed by the State of Michigan are
allowable because the costs claimed are in excess of the employees actual labor rates.
This is a violation of OMB Circular A-87, section B-11, “Compensation for personnel
services.” Likewise, the fringe benefits ($3,977) associated with the over billed labor
costs are also questioned.


            Table 1 - Schedule of Questioned Costs
                     Questioned Costs                 Questioned Costs
             Items

                State of Michigan Costs:
                                  Labor Costs                  $ 9,027
                               Fringe Benefits                    3,977
                Total State of Michigan                         $13,004
                    Costs

                TOTAL QUESTIONED COSTS                         $13,004




To assist the CO in determining the final value and contract close out of the above
contract, we have included detailed analyses of the auditor’s evaluation methodology in
determining recommended contract costs in Appendix A.




                                                 �

                      RECOMMENDATION


RECOMMENDATION

We recommend that SSA recover the questioned costs of $13,004 from the State of
Michigan on CN 600-94-13780.

SSA COMMENTS

SSA agreed with the intent of the recommendation. However, the Agency did not
provide comments and will consider the recommendation at the time of negotiation and
administrative close-out of the contract. (See Appendix B for the full text of the
Agency’s comments.)

STATE OF MICHIGAN COMMENTS

No comments received.




                                         �

APPENDICES

                                                                                             ����������




      Schedules and Explanatory Notes for Claimed

         and Recommended Costs on Contract

              Number (CN) 600-94-13780


We question $13,004 of the costs claimed by the State of Michigan on
CN 600-94-13780. This appendix provides the following details:

      •	   Table 11 depicting claimed, recommended, and questioned cost by the State of
           Michigan; and

      •	 Explanatory notes detailing the auditor’s conclusions; contractor’s basis of
         claimed costs; and auditor’s evaluation methodology used to determine the
         questioned and/or recommended costs.

Table 1 - Costs Claimed by the State of Michigan on CN 600-94-13780

                                                                                                 Reference
       Cost Element                     Claimed        Recommended         Questioned             or Note

Direct Labor
                           $   480,581          $   471,554          $     9,027 Note 1
Fringe Benefits
                            211,885              207,908                3,977 Note 2
Kelly Temp Services
                         44,353               44,353                    0
Communications
                              54,627               54,627                    0
Postage & Delivery
                          10,767               10,767                    0
Supplies
                                    51,376               51,376                    0
Office Space Rental
                         40,396               40,396                    0
Miscellaneous
                               55,376               55,376                    0
Travel
                                      30,629               30,629                    0
Equipment
                                   66,448               66,448                    0
Indirect Charges
                             4,105                4,105                    0

Total Costs                             $1,050,543           $1,037,539               $ 13,004




������������������������������������

1
    The amounts in Table 1 are rounded to the dollar. Any differences are due to rounding.


                                                      ���

                                                                                APPENDIX A


Explanatory Notes:

1. State of Michigan - Direct Labor

   ���   Summary of Conclusions:

         We question $9,027 of direct labor costs because the State of Michigan claimed
         labor costs that were greater than the individual actual labor rates for two
         employees. These costs are questioned under section B-11 of the Office of
         Management and Budget (OMB) Circular A-87 which states that
         “. . . compensation for personnel services includes all remuneration, paid
         currently or accrued for services rendered during the period of performance
         under Federal awards.”

   ���   Basis of Claimed Costs:

         Except for two employees, the State of Michigan claimed direct labor costs
         based on actual labor rates. For the two exceptions, the State of Michigan
         claimed labor costs based on estimated direct labor billing rates.

   c. Audit Evaluation:

         We used the employees’ actual labor rates and applied those labor rates to the
         recommended labor hours for the individuals assigned to the contract.

2. State of Michigan - Fringe Benefits

   a. Summary of Conclusions:

         Because we question direct labor charges, we also question $3,977 of the
         related fringe benefits claimed by the State of Michigan.

   ���   Basis of Claimed Costs:

         The State of Michigan claimed fringe benefits that are equivalent to
         44.09 percent of direct labor costs.

   ���   Audit Evaluation:

         Direct labor is the allocation base for which fringe benefit rates are applied. To
         derive questioned fringe benefit costs, we applied the average fringe benefit rate
         of 44.09 percent to our questioned direct labor costs.



                                            ���

                ����������




SSA COMMENTS

                                                           ����������




 MAJOR CONTRIBUTORS TO THIS REPORT


Office of Inspector General

   Gale S. Stone, Director, Financial Management Audits


   Shirley E. Todd, Auditor Manager


   Jim Klein, Project Leader


   Suzanne Valett, Auditor in Charge



Additional Assistance from:

   Greylen High, Senior Auditor

   Glenn Lee, Auditor
                        ����������




SSA ORGANIZATIONAL CHART

